                                  Closeout for MOO0400 18


            On April 20, 2000, the Office of Inspector General (OIG) received a letter from a
    complainant1 (the complainant) alleging improper hiring practices in connection with a
    National Science Foundation (NSF) vacancy anno~ncement.~ According to the
    complainant, NSF selected a candidate3 (the selected candidate) who did not possess the
    requisite qualifications identified in the vacancy announcement. In particular, the
    complainant alleged the selected candidate did not possess the required scientific
    background. According to the complainant, NSF selected this candidate because of a
    past employment history with NSF. In the past two months, the complainant sent letters
    containing the same allegation to NSF's Office of Human Resources (HRM) and the
    Office of General Counsel (OGC). In a recent response letter to OGC, the complainant
    alleged age and sexual discrimination as additional factors in the selection process.

           After considering the complainant's allegation, OGC and HRM found no
    improprieties in the advertisement, basic qualifications review, the quality ranking of the
    candidates, or the final selection.

            After receiving the complainant's letter, OIG requested expert assistance from
    NSF7s Office of Equal Opportunity Programs (OEOP) to examine the fairness of the
    selection process with respect to the complainant and the selected candidate. According
    to OEOPYsreview, only one of six questions concerning Knowledge, Skills and Abilities
    (KSAs) in the vacancy announcement required scientific expertise. The five remaining
,   KSAs concentrated on management, logistics and people skills. An NSF Staffing and
    Classification Team ~ e a d e questioned
                                   r~         an HRM employee5, several panel members6 and
    the NSF program office7 about the complainant and the selected candidate. According to
    OEOP, the complainant provided only short, incomplete responses to the KSAs and
    ranked nearly last in the quality ranking of all candidates.

            The NSF program office originally offered the position to a female candidate,
    who subsequently declined the employment offer. So, the NSF program offered the
    position to. the selected candidate. The NSF program office believed the selected
    candidate possessed the optional equivalent experience to the scientific background
    requirement along with the management and logistics backgrounds. The panel members
    acknowledged familiarity with the selected candidate's past employment history with
    NSF, but did not assign any particular importance to this fact.

            After considering OEOP's information, our office does not believe the
    advertisement, basic qualifications review, the quality ranking of the candidates, or the
    final selection contained any element of fraud. Accordingly, this case is closed and no
    further action will be taken by our office.

      :footnote redacted].
      Ifootnote redacted].
      :footnote redacted] ..
      :footnote redacted].
      :footnote redacted].
      'footnote redacted].
      Ifootnote redacted].

                                         Page 1 of 1
